<html>
<title> - FORUM ON KEEPING AMERICA'S SENIORS MOVING: EXAMINING WAYS TO IMPROVE SENIOR TRANSPORTATION</title>
<body><pre>[Senate Hearing 108-177]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-177

                   KEEPING AMERICA'S SENIORS MOVING:
            EXAMINING WAYS TO IMPROVE SENIOR TRANSPORTATION

=======================================================================

                                 FORUM

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             WASHINGTON, DC

                               __________

                             JULY 21, 2003

                               __________

                           Serial No. 108-15

         Printed for the use of the Special Committee on Aging



83-959              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                       SPECIAL COMMITTEE ON AGING

                      LARRY CRAIG, Idaho, Chairman
RICHARD SHELBY, Alabama              JOHN B. BREAUX, Louisiana, Ranking 
SUSAN COLLINS, Maine                     Member
MIKE ENZI, Wyoming                   HARRY REID, Nevada
GORDON SMITH, Oregon                 HERB KOHL, Wisconsin
JAMES M. TALENT, Missouri            JAMES M. JEFFORDS, Vermont
PETER G. FITZGERALD, Illinois        RUSSELL D. FEINGOLD, Wisconsin
ORRIN G. HATCH, Utah                 RON WYDEN, Oregon
ELIZABETH DOLE, North Carolina       BLANCHE L. LINCOLN, Arkansas
TED STEVENS, Alaska                  EVAN BAYH, Indiana
RICK SANTORUM, Pennsylvania          THOMAS R. CARPER, Delaware
                                     DEBBIE STABENOW, Michigan
                      Lupe Wissel, Staff Director
             Michelle Easton, Ranking Member Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Larry E. Craig......................     1

                           Panel of Witnesses

Katherine Siggerud, Acting Director, Physical Infrastructure 
  Team, U.S. General Accounting Office, Washington, DC...........     2
Sandra Rosenbloom, Director, Roy B. Drachman Institute for Land 
  and Regional Development, University of Arizona, Tucson, AZ....     7
Terri Lynch, Director, Arlington Agency on Aging, Department of 
  Human Services, Arlington, VA..................................    13
Jon E. Burkhardt, Senior Study Director, WESTAT Research 
  Coporation, Rockville, MD......................................    25
Stephan O. Kline, Legislative Director, United Jewish 
  Communities, Washington, DC....................................    42
Helen Kerschner, President and Chief Executive Officer, The 
  Beverly Foundation, Pasadena, CA...............................    53
Sandra Markwood, President and Chief Executive Officer, National 
  Association of Area Agencies on Aging, Washington, DC..........    66

                                 (iii)

  

 
 FORUM ON KEEPING AMERICA'S SENIORS MOVING: EXAMINING WAYS TO IMPROVE 
                         SENIOR TRANSPORTATION

                              ----------                              --



                         MONDAY, JULY 21, 2003

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The Forum convened, pursuant to notice, at 2:32 p.m., in 
room SD-628, Dirksen Senate Office Building, Hon. Larry E. 
Craig (chairman of the committee) presiding.
    Present: Senator Craig.

     OPENING STATEMENT OF SENATOR LARRY E. CRAIG, CHAIRMAN

    The Chairman. Ladies and gentlemen, let me begin this 
afternoon's forum on senior transportation first and foremost 
by welcoming all of you.
    I am Senator Larry Craig, Chairman of the Special Committee 
on Aging here in the Senate, and I want to thank all of you for 
attending and especially thank our panelists for being with us 
this afternoon to discuss not only an important topic across 
America but a tragically timely topic for all of us to deal 
with and consider.
    Our goal today is to discuss the accessibility, efficiency, 
and affordability of senior transportation programs and to 
build a record as Congress and others look at possible 
solutions to many concerns out there.
    More specifically, it is my desire that the panel examine 
four key issues: the varying transportation needs of rural, 
urban and suburban seniors; the potential for better 
coordination of transportation services nationwide; 
characteristics of best practices in use today as well as gaps 
and problems in senior transportation services; and potential 
opportunities for Federal policies to improve senior 
transportation and coordination.
    In light of last week's tragic accident in Santa Monica, it 
is reflective of an increasing problem in our country, and it 
is part of why we are here today to talk about senior 
transportation.
    Clearly, that particular incident underscores the 
importance and value of assuring transportation alternatives 
for seniors once they are no longer able to drive safely. This 
past year, about 600,000 Americans over age 70 gave up the keys 
to their cars. For the teenager who has just gained his or her 
keys, it is the ultimate statement of freedom; for the senior 
who is giving up their set of keys, it is the ultimate 
statement of a loss of freedom, unless there is a corresponding 
transportation system to afford them what the loss of that 
automobile results in.
    Interestingly enough, we now know more than ever before 
that incidents with older Americans in fatal and damaging 
accidents at a certain age are nearly as high as those with 
young teenage drivers.
    It is a problem that we will deal with, but I hope we will 
deal with it at the State level where licensing occurs. One of 
my messages to the panelists today is to speak somewhat about 
this issue. But my message to the States is to be responsible 
in the effective screening of your drivers in the licensing 
process and to recognize when impairments result in the 
inability of that individual to drive safely and the very real 
question as to whether that individual should continue to 
drive.
    Those are all issues that need to be discussed, and 
certainly the situation in Santa Monica simply dramatizes that.
    In my home State of Idaho, there is an example of a 
transportation system for the aging in Twin Falls that has now 
been called one of the Nation's five best, because it not only 
deals with urban but it deals with rural environments, and in 
many of our States' rural environments and seniors still 
choosing to live there create very awkward and difficult 
transportation problems.
    There are a lot of issues to talk about here, and we have a 
most capable panel to discuss that with you this afternoon. So 
let me at this time cease my comments and turn to Katherine 
Siggerud. Ms. Siggerud is the Acting Director for physical 
infrastructure at the U.S. General Accounting Office. She is 
the author of a recent report examining transportation 
disadvantaged populations. Her background and expertise are 
impressive as are each of our panelists today.
    I am going to turn to Ms. Siggerud as our moderator to 
introduce our panel and to start our forum for the day.
    Thank you all very much for attending. We look forward to 
all of your statements and to the record you will help us build 
on this critical issue for our Congress and our States to be 
involved in.
    Thank you very much.

  STATEMENT OF KATHERINE SIGGERUD, ACTING DIRECTOR, PHYSICAL 
     INFRASTRUCTURE TEAM, U.S. GENERAL ACCOUNTING OFFICE, 
                         WASHINGTON, DC

    Ms. Siggerud. Thank you, Senator Craig.
    As the Senator noted, I am Kate Siggerud, and I work for 
the U.S. General Accounting Office. I will be moderating 
today's panel on senior transportation issues.
    I would like to start by thanking Chairman Craig, Ranking 
Member Breaux, all the members of the Senate Special Committee 
on Aging, and the committee staff for convening this forum and 
inviting a distinguished panel of experts to work with us.
    Given recent events, as Senator Craig noted, this forum 
could not be more important and timely. As we all know, last 
week, an 86-year-old motorist crashed into the Santa Monica 
farmers' market in California. Over 60 people in the market 
were injured, 10 of them fatally.
    The crash has renewed the debate on the Government's role 
regarding the declining ability to drive as people grow older. 
For example, when compared to drivers of different ages, 
drivers over 75 experience fatal crash rates that rival or 
exceed the rates for 16- and 17-year-old drivers.
    Nevertheless, the need for seniors to drive will only 
increase. There are more older drivers on the road today, and 
that number will increase as the baby boomers age. From 1991 
through 2001, for example, the number of licensed drivers over 
70 increased by 32 percent, from 14.5 million to 19 million, 
and drivers over 70 are now 10 percent of the nation's licensed 
drivers.
    The mobility brought about by driving and other means of 
travel is an important determinant of seniors' quality of life. 
The ability of seniors to visit family and friends, to get 
medical care, to shop and to worship is directly influenced by 
their access to high-quality transportation.
    Surveys show that the majority of seniors prefer to drive 
rather than use other methods such as transit, using senior 
vans or walking. About 60 percent of people over 75 report that 
they have a driver's license, and those who do not generally 
prefer to travel as a passenger in a car.
    When seniors stop driving, the number of trips they take 
away from home often plummets along with their quality of life. 
There are several reasons that seniors prefer to travel by car, 
and these factors present challenges that will be difficult to 
overcome.
    First, more than 70 percent of seniors live in suburban, 
small town, or rural settings that are not well-served by 
transit. Second, driving gives seniors control. They do not 
have to ask others for assistance, and they also do not have to 
make advance arrangements for their transportation.
    Therefore, today's forum will focus primarily on seniors 
who have reduced their driving or do not drive at all and 
improving the options available to them for improved mobility.
    We have a distinguished panel of experts here to help us 
explore these issues. They are: Dr. Helen Kerschner, President 
and CEO of The Beverly Foundation; Mr. Jon Burkhardt, Senior 
Study Director from WESTAT Research Corporation; Ms. Sandra 
Markwood, CEO of the National Association of Area Agencies of 
Aging, known as ``N4A''; Mr. Stephan Kline, Founder of the 
Senior Transportation Task Force and Legislative Director of 
United Jewish Communities; Dr. Sandra Rosenbloom, Professor of 
Planning and Director of the Drachman Institute at the 
University of Arizona; and finally, Ms. Terri Lynch, Director 
of the Arlington County, Virginia Commission on Aging.
    Let me just explain this afternoon's schedule. We will 
start with a brief discussion of issues related to safe driving 
by older drivers. Following that, we will move to each of our 
panelists' opening statements. We will then move to a 
discussion around four themes. Senator Craig outlined these, 
and I will simply remind you of them at this time.
    The first is senior transportation needs in urban, 
suburban, and rural settings and the programs available to 
address them. The second is coordination of transportation 
services for seniors and the potential of coordination to 
improve efficiency, affordability and availability of services. 
Third is the characteristics of senior transportation programs 
that are successful and methods of communicating and adapting 
these programs in other places. Fourth and finally is the 
reauthorization of the Transportation Equity Act for the 21st 
Century, also known as ``TEA-21,'' and other opportunities for 
Federal, State, and local policies to impact and improve senior 
transportation.
    We will spend about 20 minutes on each of these themes and 
wrap up between 4:30 and 5 o'clock today.
    Finally, it is important to note that the committee plans 
to produce a record of today's forum. It will include the 
opening statements of all the panelists, the discussion that 
follows, and other submitted statements. The committee will use 
this record to identify critical issues and innovations in 
senior transportation in order to guide its further work. The 
committee will also make the information available to other 
committees in the Senate and the House where it will be useful 
in considering transportation reauthorization and other 
legislation.
    Why don't we move now to the issue that I think has brought 
many of you here today, and that is the safety issue. I would 
like each of our panelists to comment on two questions. The 
first is what steps could the Federal and State Governments 
take to help seniors retain their driving skills and also to 
assure an adequate response in cases where driving ability does 
decline. Second is how can family members, friends, and 
communities help a senior driver make decisions about whether 
to continue driving.
    Dr. Rosenbloom, I think some of your work has touched on 
these issues. Would you care to start us off, please?
    Dr. Rosenbloom. Yes. I would like to make a comment I think 
a lot of communities and States now are looking very quickly at 
mandatory relicensing and retesting of older drivers.
    The evidence from here and abroad however is that most 
testing does not work if the criterion is a lower crash rate 
among elderly drivers. I think there are a couple of reasons 
and some lessons to be learned from this research.
    The major reason is that we do not really know how to test 
people for the skills that they need to continue driving. 
Testing does indeed stop people from driving. We know that when 
we give these tests, some people stop driving. How is it 
possible that they stop driving and we do not have lower crash 
rates? We are stopping the wrong people from driving. We are 
stopping people who are not particularly dangerous to begin 
with, including a lot of women. There is substantial evidence 
that women stop prematurely when faced with these tests. 
Morever people who need the tests may fail them and keep 
driving; that is going to be an increasing concern with a 
population with increasing dementia.
    Finally, we cannot test people cost-effectively. The 
Government is working on that, and there are some tests going 
on in this area that I think are very promising, but most of 
the tests that people will rush to implement now will not help; 
there will just be a lot of money down the drain.
    I believe the Federal Government should take an active role 
with the States in finding better more cost-effective ways to 
test all drivers, not just older drivers. I do not believe in 
age-based testing; I believe in behavior-based testing. If 
people have markers--that is, they have crashes, they have a 
lot of tickets, their doctor says they need help, family 
members tell the motor vehicle division that they need help--
then these are reasons to draw in people at any age to be 
retested. They ought to be retested with appropriate devices. 
We are still working on those.
    Ms. Siggerud. Ms. Lynch you told me that you had some 
information on some local initiatives. Would you care to share 
those, please?
    Ms. Lynch. Yes. I am from Arlington, VA, right across the 
river here, and we are participating with the Association of 
Motor Vehicle Administrators, who are running a program in this 
metropolitan area to go out and do two things--educate older 
drivers about things that we already know they can do to be 
safer behind the wheel, and we are also at the same time 
talking about transportation options that do exist, because the 
idea is to entice people from behind their wheel. So it is both 
thing--how do you stay safer, and then what is available when 
you need to leave. I will add a caveat from the very local 
level--testing alone is not enough, because if you send 
somebody to the DMV and they get tested--and in Virginia, you 
can just ask that the DMV test somebody, and they will call you 
in and offer a specific test; that is already available--but 
you really have to do more than take away the license. If the 
problem really is driving, people may not remember they do not 
have a license. You have to take away the key, and sometimes 
you have to take away the battery.
    Ms. Siggerud. Mr. Burkhardt.
    Mr. Burkhardt. I think we are all saddened by this really 
terrible tragedy in Santa Monica, but I think the point is not 
to get too focused on one particular incident. While one 
gentleman had a tragic, tragic accident, nearly 25 million 
older Americans are driving safely and were driving safely on 
that very day.
    People need to understand that mobility is an extremely 
important issue for everyone, and it is a particularly 
important issue for people who are older. People who are older 
need to go and get groceries, to visit friends, need to do 
personal business, and need to be involved in religious 
communities. The way our world is set up in this country, these 
activities all require movement from one location to another 
location.
    The key question is what kinds of travel choices are there? 
There really are very few choices, and in fact, departments of 
motor vehicles have problems taking licenses away from 
individuals who are habitual drunk drivers, or for older 
drivers who cannot drive very well because they cannot see very 
well, or from teenagers who have very high rates of crashes. If 
we had better choices in the way of public transportation, 
private transportation, taxi services, volunteer services 
through area agencies on aging and others, we would have better 
mobility choices in this country, and we would not have to 
traumatize people by hiding their keys, slashing their tires, 
or selling their cars which can lead to a lot of 
intergenerational strife.
    So we need to focus on what we can do to get people moving 
around and doing that safely.
    Ms. Siggerud. Mr. Kline.
    Mr. Kline. I think that was really well-said. Seniors do 
not have a lot of choices in most communities as far as finding 
suitable alternatives, and that is obviously going to be the 
theme of this forum.
    We have talked to a lot of seniors about why they are not 
looking to the programs in their areas and what they can do and 
how they are going to need to change their behavior. It turns 
out that when seniors are still driving, they try to get rid of 
some of the easy stuff first, in order to maintain their 
driving--to not turn left, for instance, because they have to 
cut across traffic; or to avoid bad weather, or to stop driving 
at night. Obviously, figuring out what is the next part of 
driving that you can live without is not a great way of 
figuring out a good transportation system.
    One, we need to come up with alternatives--and we will talk 
about that in a few minutes--and two, I think we really need to 
strengthen supports for family caregivers, because even if 
there are good public and private programs, we are still going 
to really depend on family and friends to help shuttle people 
around, and that is something we can talk about.
    Ms. Siggerud. Thank you.
    Dr. Kerschner.
    Dr. Kerschner. Not so long ago, I heard a physician say 
that she has patients who would rather she tell them that they 
have Alzheimer's than that they have to stop driving. It is a 
critical issue for older people and a terrible problem.
    I think we exacerbate the problem to some extent in the way 
we describe it and the way we describe the solutions. We talk 
about driving assessment, and we talk about taking away the 
keys. It seems to me that driver training or retraining or 
checkups and tuneups is a much better way to discuss this 
subject and to make those programs available to seniors so they 
can improve their driving skills, understand if they should 
limit their driving, understand if in fact it is time to stop 
driving. I think that is very important for us to consider.
    I also think that family members are probably the last 
people who want to take away the keys from an older adult, and 
they are the last people older adults want to have take their 
keys away. We see that in qualitative and quantitative research 
that we have all done.
    So I think we really have to depend on the professional 
community to help out in this, but I do think that driver 
training and retraining and checkups and tuneups can go a long 
way toward helping solve the problem. I can tell you, being 
from Los Angeles, from Pasadena, in California, that what 
happened recently is a wakeup call. It is a tragedy in 
California, and it is a wakeup call for all of us to say that 
we need to take this very seriously, and we need to give it a 
lot of thought.
    Ms. Markwood. I think the issue of driver training and 
retraining is an important one that Helen just pointed out. 
When you define this as older drivers have a problem already, 
people are not going to search out the means to do a self-
assessment. I think we need to look at this as a national issue 
and have it be part of our daily lives that everybody needs to 
have an assessment or reassessment or retooling to make sure 
that their driving skills are what they should be and, in 
saying that, having it tailored to taking the keys away is a 
very negative marketing approach to get people to do an 
assessment.
    Additionally on the issue of caregivers sine our agencies 
work very closely with them, again, I echo Helen's sentiment. 
The caregivers are burdened right now with so many issues 
trying to take care of older adults that putting them in the 
position of saying, ``You can no longer drive; we need to take 
your keys away,'' is a difficult one.
    However, they do need information. They need those hints. 
They need to be looking out for those different types of 
activities that may happen when an older person is driving that 
leads them to think that they may need to talk to the doctor or 
somebody in the professional community to lead them to an 
assessment or to lead them to some type of retraining 
activities.
    Additionally, in the professional community, oftentimes the 
medical community does not see this necessarily as their 
function, but it is a critical one. I think part of that is 
that the medical community needs to know the supports that are 
out there in the community, the options that are out there if 
someone's keys are in fact taken away from them, if they are no 
longer able to drive, that there are transportation options--or 
we need to develop those adequate transportation options so 
that the mobility will not be impaired.
    Ms. Siggerud. Thank you.
    I think at this point, then, we will move to the original 
opening statements that everyone here has prepared. I will ask 
each panelist to keep his or her comments to 5 minutes or less, 
please.
    We will start with you, Dr. Rosenbloom.

   STATEMENT OF SANDRA ROSENBLOOM, DIRECTOR, ROY P. DRACHMAN 
  INSTITUTE FOR LAND AND REGIONAL DEVELOPMENT, UNIVERSITY OF 
                      ARIZONA, TUCSON, AZ

    Dr. Rosenbloom. Thank you.
    I am Sandi Rosenbloom, and I am Director of The Drachman 
Institute, which is a research and public service unit of the 
University of Arizona.
    I am very concerned that we tend to misconceive the 
transportation problems of older people because we do not 
understand how complex their lives are and how central to their 
independence and freedom the car is. Because of that, I think 
we do not understand how much older people contribute to some 
of the societal problems we are trying to address from traffic 
congestion to urban sprawl to environmental pollution. I think 
we have to understand how older people live their lives to 
provide them safer and better transportation options and to 
make sure they can live a healthy and full life while also 
addressing those societal problems.
    To just briefly reprise the statistics that Katherine gave 
you, most older people today are drivers; almost all of them 
will be drivers in the future, because people over 40 today are 
almost all drivers. In fact, it is almost all men who drive; 
today older women are less likely to drive, but that gap is 
going away. Today, older Americans comprise about 14 percent of 
the driver pool. That is going to almost double. In under 30 
years, they are going to comprise 25 percent of all drivers. 
The Highway Safety Institute says they are going to be involved 
in 25 percent of all fatal crashes.
    One reason why older people are so dependent on their cars 
is that they are living in low-density areas. Between one-fifth 
and one-fourth live in rural areas; of the three-quarters who 
live in metropolitan ares, three-quarters of those live in the 
suburbs. Most older people do not move, on retirement since we 
now have suburbs where 30 or 40 percent of residents over 40, 
within a few decades we are going to have suburbs that are 40 
and 50 percent people over 65. While most older people age in 
place--they do not move--those who do migrate to Arizona and 
Florida and so forth are moving to naturally occurring 
retirement communities in rural areas, and they are moving to 
the edges of metro areas like Atlanta and Phoenix and Houston 
and cities in Florida.
    So all of the problems of low-density development and no 
alternatives to the car will only worsen for the baby boomers 
as they come into their senior years. Not surprisingly, transit 
use has been falling among the elderly and 1995 was the first 
time that transit use among the elderly was less than among 
younger people, and it was very low, but between 1995 and 2001, 
it fell by half again in 2001 only 1.2 percent of all trips 
made by older people were made using public transit. Although 
there is a tremendous amount of discussion, and we are here 
today to discuss alternative modes, they have fallen so far--
that is, special transit systems, special services, special 
services by aging--that you cannot break them out in national 
statistics in 2001.
    Where does this leave us? I think we have to make 
improvements in five areas, and I think everyone has touched on 
some of these. First, we have to improve and enhance all 
aspects of the highway system. We have to make cars smarter and 
safer and less environmentally polluting. We have to make the 
highway system safer. We have to have better signs. We have to 
have better tests. We have to have better ways to keep older 
drivers driving when they can do so safely.
    The Federal Highway Administration in fact has a series of 
voluntary standards for communities to use in making their 
highways more older-driver-friendly, but the standards are 
voluntary, and there is substantial evidence nobody is adopting 
them.
    The second thing we have to do is improve and enhance the 
pedestrian system and infrastructure. That seems like an 
obvious issue and easy to do. In fact it is not easy to do, and 
I want to point out to you that statistics suggest that an 
older person is 14 to 16 times more likely to be killed or 
injured in a pedestrian crash than in a car crash. In other 
words, it is safer for them to be in a car than walking along 
the streets.
    Pedestrian death rates, among the elderly as you probably 
know, have been dropping rapidly around the world. The No. 1 
reason is that older people are walking less and driving more. 
If we want to reverse that, if we want older people to have 
pedestrianism as a feasible mode as well as a health option, we 
have to figure out ways to make walking safer.
    Third, we have to expand and improve conventional public 
transit. We have to talk about funding services to move into 
suburban and rural areas. We have to talk about running at non-
peak times when older people are more likely to want to travel. 
We have to talk about making the systems more safe and more 
secure--that is, no accidents and no crime--and that involves 
the pedestrian component of the trip to a transit station as 
well. We have to look at new kinds of transit services like 
service routes and community buses, which I think some of my 
colleagues are going to talk about.
    My fourth suggestion is that we have to encourage an active 
role for the private sector in transport delivery. We have to 
regularize informal services. In almost every community of 
color, for example, there are many informal, perhaps illegal, 
drivers providing a substantial amount of service to seniors. 
We have to find ways to make them safer and more secure but not 
put them out of business. We have to find a way to grow and 
support volunteer networks, and we have to use taxi and other 
transportation operators more effectively than we do now.
    Finally, we have to enhance the design of communities and 
make sure that the kinds of things that are being suggested for 
community revitalization, infill and so forth, do not create 
more hazardous communities for older people as they move them 
closer to services.
    I have prepared supporting material for the things that I 
have just talked about for a Brookings Institution Center 
policy reform debate, and some of them are still left on the 
table.
    I thank you for your time.
    [The prepared statement of Ms. Rosenbloom follows:]

    [GRAPHIC] [TIFF OMITTED] T9855.001
    
    [GRAPHIC] [TIFF OMITTED] T9855.002
    
    [GRAPHIC] [TIFF OMITTED] T9855.003
    
    Ms. Siggerud. Ms. Lynch.

STATEMENT OF TERRI LYNCH, DIRECTOR, ARLINGTON AGENCY ON AGING, 
          DEPARTMENT OF HUMAN SERVICES, ARLINGTON, VA

    Ms. Lynch. Thank you.
    My name is Terri Lynch, and I am the Director of 
Arlington's Area Agency on Aging. It is unit within the 
Nation's most comprehensive Department of Human Services. I 
want to thank you for the opportunity to share some of our 
efforts in creating a coordinated framework for services. It is 
coordinated, it is a framework, it is a skeleton; it is very 
thin.
    First, a little bit about Arlington. We are the 12th most 
dense population in the Nation, and for more than a generation, 
the county's land use plans have been voted toward maximizing 
development in a way that makes effective use of mass transit.
    However, even in the most urban area that we are, if an 
older person cannot get anywhere near the mass transit, they 
can be as isolated and as remote as anybody in the most remote 
rural area. For those of you who know apartment buildings, you 
can live with 12 families on the same floor, and you do not 
know any of them--so you can be remote even when surrounded by 
people.
    We have had some publicly funded transportation for a 
generation--Older Americans Act funding to congregate nutrition 
programs, to the adult daycare programs, some for grocery 
shopping and medical appointments--and we have come to rely on 
the taxicab fleet in Arlington because we are so dense. It is 
in fact the most cost-effective way of providing that service. 
But we have also known that every day, there are people who are 
eligible for the services we provided who are doing without it.
    We have four senior highrises that have 960 residents, and 
we have tried to create coordinated systems for grocery 
shopping and medical appointments. It does not deal with any of 
the other places that people would want to go, but it gets them 
out for that.
    Our big growth in transportation occurred as a result of 
the ADA. When the Americans with Disabilities Act passed, Metro 
in this metropolitan area had to create a complementary 
paratransit system for people who could not use bus and rail. 
Arlington then created its own system called STAR, Specialized 
Transit for Arlington Residents, for people who would otherwise 
be using Metro Access. Because we coordinate and manage it, it 
is cheaper, and it is, once again, more cost-effective and the 
service is better. It is available for people with a 
transportation disability, meaning they cannot get to the Metro 
and use it.
    This is entirely local-government-funded, because as you 
know, ADA does not come with a funding stream, but it becomes 
available for people to use. It then gave us the opportunity to 
do some incremental add-ons--assisted transportation for STAR 
so that people who are already STAR users, which is a curb-to-
curb service. If you want to get from your apartment or your 
house front door to the curb and then on the other side to 
where you are going, we added the assistance component. Because 
of limited funds, it is available only for health care 
appointments. In the interim, it takes a long time for Metro 
Access to process the applications, so we have set up an 
interim program again for health care appointments.
    We used to have money for a temporary program under STAR 
because if you have some kind of health care problem--
chemotherapy, broken hip, recuperation of some sort--you are 
not going to have a long-term disability, but you need that 
transportation for short-term. We hope to somewhere find the 
money to start that program again.
    We have a subsidized taxicab voucher program, allowing 
people to, for a limited amount, buy coupons at half-price, and 
we have transportation to our senior centers.
    The STAR office coordinates a number of these 
transportation programs so everything is coordinated. Our 
challenges are threefold. No. 1, the simple thing, is making 
sure that people in fact know what is available--because 
everyone on this panel knows that you can have a program, and 
if people do not know about it, it does not do any good. You 
have new people who need it every day, so it is constant 
education.
    The second thing is helping more older residents understand 
that when Metro Access talks about having a ``transportation 
disability,'' it may well apply to them. People are so ready to 
say that to have a disability means that you use a wheelchair, 
and if you do not use a wheelchair, you do not have a 
disability. So that is another piece.
    Of course, the third and most critical one is funding to 
maintain these things. If I were to tell you, for example, that 
for our wonderful assisted transportation program, $7,000, it 
is a long waiting list. So it is a fine program, but it is very 
thin.
    The way we have been able to achieve all of this is 
through--as I said, Arlington is small, and we are an 
integrated department--effective collaboration with our public 
works, with Metro, with our community activists, with the 
nonprofit agencies in the area, with the taxicab company. It is 
the collaboration that has gotten us to our skeletal framework, 
and I do want to say it really is a skeleton.
    Thank you.
    Ms. Siggerud. Thank you.
    [The prepared statement of Ms. Lynch follows:]

    [GRAPHIC] [TIFF OMITTED] T9855.004
    
    [GRAPHIC] [TIFF OMITTED] T9855.005
    
    [GRAPHIC] [TIFF OMITTED] T9855.006
    
    [GRAPHIC] [TIFF OMITTED] T9855.007
    
    [GRAPHIC] [TIFF OMITTED] T9855.008
    
    [GRAPHIC] [TIFF OMITTED] T9855.009
    
    [GRAPHIC] [TIFF OMITTED] T9855.010
    
    [GRAPHIC] [TIFF OMITTED] T9855.011
    
    [GRAPHIC] [TIFF OMITTED] T9855.012
    
    [GRAPHIC] [TIFF OMITTED] T9855.013
    
    Ms. Siggerud. Mr. Burkhardt.

 STATEMENT OF JON E. BURKHARDT, SENIOR STUDY DIRECTOR, WESTAT 
              RESEARCH CORPORATION, ROCKVILLE, MD

    Mr. Burkhardt. My name is Jon Burkhardt, and I am Senior 
Study Director at WESTAT in Rockville, MD. WESTAT is an 
employee-owned research corporation.
    You have heard the statistics about older drivers and older 
individuals. I would just like to point out one of them. In 30 
years, the number of people 65 and older in this country will 
double, and the proportion of people who are 65 and older is 
going to go from 12 percent to 20 percent. There will be lots 
more of us. I want better transportation when I get there.
    Elders get many benefits from transportation. People do not 
stop traveling when they stop working. Elders still need access 
to economic opportunities. They need not to depend on or 
inconvenience other people. Elders talk about freedom and 
independence again and again, and again and again, when we do 
focus groups. They say: ``Freedom and independence. That is why 
I need to get around.''
    Easier access to needed services, means more social 
interaction, which means less social isolation and loneliness, 
saving money and avoiding unnecessary institutionalization. 
These are the kinds of benefits that mobility provides.
    I think it is wonderful that the Senate Special Committee 
on Aging is convening this hearing, because I think this 
committee can take a great deal of leadership, and leadership 
is one of the key factors that we need. The second key factor 
that we need is innovation, and the third point is that we need 
leadership and innovation now, because if we do not start now, 
we will never meet the needs in 20 or 30 years, when they will 
be really, really severe.
    I have six points in my prepared testimony. One is that we 
need this comprehensive senior mobility program.
    The second is that there are public transportation 
improvements that could make public transportation 
significantly more attractive to seniors.
    There are high-payoff mobility improvement strategies 
around the United States, and these can serve as examples of 
what we can do.
    Coordination is certainly one of the things that we need to 
focus on. It offers significant economic and administrative 
benefits.
    Fifth, there are special needs for seniors who live in 
rural areas, and we need to focus on those needy.
    Finally, congressional leadership is going to be needed, 
and we need that desperately.
    When we talk about a comprehensive mobility program, we 
really mean the entire broad range, starting with driver safety 
efforts, including improved public transportation services, 
better taxi services and paratransit services, some of which 
will certainly be privately owned and operated, better 
pedestrian services. We will need many more volunteer services 
because volunteers are going to be a crucial component of 
mobility in the future. We will need hand-to-hand escort 
services, emergency transportation, and better information for 
the public, like the Grand Driver information campaign which 
was recently initiated. We will need better land use planning 
and research on how mobility and policy issues are intertwined.
    So we need better alternatives. What can Congress do? 
Congress can focus people's attention on senior mobility. We 
all need to let people know that this is an issue that is 
important now, and it is going to grow in importance with 
every, single day.
    We need to support innovation, and we need to find out 
which innovations work in which communities and which can be 
transferred to others.
    We need enhanced funding of existing programs like FTA's 
Section 5310 and 5311 programs for elderly persons, persons 
with disabilities, and persons living in rural areas.
    We need to simplify Federal grant reporting and grant 
administration procedures.
    We need to change Medicare legislation so that Medicare can 
pay for non-emergency transportation when people need it to get 
to health and other needed services.
    Congress should assist us in our coordinated transportation 
efforts by requiring that all agencies--not just the Federal 
Transit Administration and the Administration on Aging--
coordinate all the transportation services that they provide.
    We need legislation for uniform cross-program reporting, 
and we need to insist on a community-wide focus for 
transportation--not just one travel mode, not just one client 
group, but a broad perspective including drivers, transit 
riders, pedestrians, and people who rely on volunteer services.
    Thank you.
    Ms. Siggerud. Thank you.
    [The prepared statement of Mr. Burkhardt follows:]

    [GRAPHIC] [TIFF OMITTED] T9855.014
    
    [GRAPHIC] [TIFF OMITTED] T9855.015
    
    [GRAPHIC] [TIFF OMITTED] T9855.016
    
    [GRAPHIC] [TIFF OMITTED] T9855.017
    
    [GRAPHIC] [TIFF OMITTED] T9855.018
    
    [GRAPHIC] [TIFF OMITTED] T9855.019
    
    [GRAPHIC] [TIFF OMITTED] T9855.020
    
    [GRAPHIC] [TIFF OMITTED] T9855.021
    
    [GRAPHIC] [TIFF OMITTED] T9855.022
    
    [GRAPHIC] [TIFF OMITTED] T9855.023
    
    [GRAPHIC] [TIFF OMITTED] T9855.024
    
    [GRAPHIC] [TIFF OMITTED] T9855.025
    
    [GRAPHIC] [TIFF OMITTED] T9855.026
    
    [GRAPHIC] [TIFF OMITTED] T9855.027
    
    [GRAPHIC] [TIFF OMITTED] T9855.028
    
    Ms. Siggerud. Mr. Kline.

  STATEMENT OF STEPHAN O. KLINE, LEGISLATIVE DIRECTOR, UNITED 
               JEWISH COMMUNITIES, WASHINGTON, DC

    Mr. Kline. Good afternoon. I am Stephan Kline, Legislative 
Director for United Jewish Communities.
    Let me begin by telling you about Artis Joyce, a Chicago 
resident and, for the past 2\1/2\ years, a patron of the Jewish 
Council for the Elderly Shalom Taxi Service. Ms. Joyce has 
arthritis and a herniated disc, making it very difficult for 
her to get around by herself, so she relies on Shalom Taxi for 
12 or more times per month.
    She said: ``Without the Shalom bus, I could get some rides 
to the doctor from the State, but I could not get to the 
grocery store with the best prices and the best quality.'' 
Obviously, even seniors can be serious bargain shoppers.
    Ms. Joyce believes she would be lost without this program 
and really would not be able to get out and about. It is to 
help people like Artis Joyce that UJC entered the important 
debate over senior transportation.
    United Jewish Communities is a faith-based charity that 
represents 156 local Jewish federations and 400 independent 
communities across the country. As one of the country's largest 
social service networks, our Federation has helped to plan, 
coordinate and fund programs for people in need like Artis 
Joyce.
    As Abraham Joshua Heschel, a well-known Jewish scholar and 
social activist stated: ``The test of a people is how they 
behave toward the old.'' You may know that the Jewish community 
has a much higher percentage of elderly persons than the 
general population. We are about 20 percent over the age of 65 
compared to about 12 percent, and the 85-plus population in our 
community is actually the fastest-growing part. So we are 
dealing with the issues that this country is going to face in 
2010 and 2030 with the baby boomers now.
    To this end, UJC is committed to increasing the quality of 
life for our parents and grandparents, and care for the elderly 
is at the very top of our domestic policy agenda.
    People over the age of 65 face the slow process of physical 
deterioration. Although many continue to drive, others must 
come to the difficult realization that it is not safe for them 
to be on the roads due to failing eyesight or slow reflexes.
    Russell Weller should not have been driving that car in 
Santa Monica last week, but imagine spending your entire life 
with the freedom to come and go as you wish and then having 
that freedom taken away from you. Faced with this life change, 
most seniors must rely on family and friends to get where they 
need to go. Many instead choose to stay inside in order to 
avoid becoming a burden on their loved ones.
    Senior transportation is a positive, dignified, and 
respectful way to give back to our seniors and to avoid 
creating a population of shut-ins isolated from society. That 
is why Artis Joyce refers to Shalom Taxi as her godsend.
    Many of our local agencies have shared with us stories 
demonstrating a common barrier regarding senior services. 
Excellent programs that care for the elderly may be in place 
and are amply funded by our community, but seniors do not have 
the capacity to attend the programs or receive services due to 
lack of transportation.
    Obviously, without access or transport, the impact of 
individual programs is severely diminished. With financial 
support provided by the Mount Sinai Health Care Foundation in 
Cleveland, OH, UJC responded by initiating a senior 
transportation project. This project has evolved into a 
national task force that focuses solely on this critical issue.
    While innovative methods to care and support well and frail 
elderly men and women are emerging, no coordinated senior 
transportation policy has existed at the national level. UJC 
recognized that the reauthorization of the Transportation 
Equity Act for the 21st century presented a unique opportunity 
to influence the development of senior policies on 
transportation. While an opportunity has presented itself, 
there was no national voice that was dedicated to raising the 
profile of the senior transportation issue.
    UJC formed a senior transportation work group to fill this 
void, and over the last 12 months, we have brought together 
over 40 groups from the aging, disability, environmental, 
faith-based, labor, and other communities of interest to 
jointly promote and advocate for senior transportation. Working 
together, we have compiled a dozen recommendations that will 
transform the national infrastructure of senior transportation 
through increased funding and innovative policies. I have 
included the full proposals in my submitted remarks, but the 
main recommendations are summarized in the following three 
points.
    First, Congress should significantly increase funding for 
the 5310 Program. Funding for this program is currently set at 
$91 million and is set to go down to $87 million in fiscal year 
2004. We recommend an expansion to $350 million, which would 
partially offset the estimated $1 billion per year in unmet 
transportation needs that exist for seniors in this country.
    Second, Congress should allow States to have more 
flexibility in their use of Section 5310 funds, allowing those 
funds to be utilized for operating expenses as well as capital 
expenditures, and should permit matching funds to be derived 
from any source including other Federal programs. These changes 
would make the 5310 program consistent with other Federal 
transportation programs.
    Third, Congress should set aside specific demonstration 
project funding within the Federal Transit Administration to 
help establish best practices at the local level and planning 
mechanisms for innovative and collaborative transportation 
projects for senior citizens. Congress should also establish a 
national technical assistance center to share models and best 
practices related to senior transportation, as it did in the 
disability community with Project Action, which is run by 
Easter Seals.
    Thank you very much.
    Ms. Siggerud. Thank you.
    [The prepared statement of Mr. Kline follows:]

    [GRAPHIC] [TIFF OMITTED] T9855.029
    
    [GRAPHIC] [TIFF OMITTED] T9855.030
    
    [GRAPHIC] [TIFF OMITTED] T9855.031
    
    [GRAPHIC] [TIFF OMITTED] T9855.032
    
    [GRAPHIC] [TIFF OMITTED] T9855.033
    
    [GRAPHIC] [TIFF OMITTED] T9855.034
    
    [GRAPHIC] [TIFF OMITTED] T9855.035
    
    [GRAPHIC] [TIFF OMITTED] T9855.036
    
    [GRAPHIC] [TIFF OMITTED] T9855.037
    
    Ms. Siggerud. Dr. Kerschner.

  STATEMENT OF HELEN KERSCHNER, PRESIDENT AND CHIEF EXECUTIVE 
         OFFICER, THE BEVERLY FOUNDATION, PASADENA, CA

    Dr. Kerschner. Thank you.
    I am Helen Kerschner, and I am pleased to be here today. I 
am representing The Beverly Foundation of Pasadena, CA.
    I would like to outline several senior transportation 
problems and solutions that we have identified in our national 
research that we have been undertaking at least for the last 7 
years. My comments include six points.
    First, senior transportation options are critical. Much of 
the senior transportation discussion has in the past focused on 
older drivers and getting them off the road when they can no 
longer drive safely. However, to enable them to stop driving, 
senior-friendly options really must be available. You might ask 
what is ``senior-friendly.'' Well, our Foundation's national 
transportation focus group projects and our survey research 
projects have identified the 5 A's of senior-friendly 
transportation: availability, acceptability, accessibility, 
affordability, and adaptability.
    The second point is that we need to place special emphasis 
on the 85-plus population. The old-old are especially 
vulnerable. This is an age group for which driving can present 
particular problems--the problems that we have talked about in 
Santa Monica last week and many others like it. It is also an 
age group that, according to research by the National Institute 
on Aging, may outlive its driving expectancy and have to depend 
on others for transportation. For men, it can be up to 6 years; 
for women, 9 years.
    This means that many in the 85-plus age group could well 
live for 6 to 10 years not being able to drive and being 
transportation-dependent. It is a growing problem, too, because 
this is the fastest-growing segment of the older adult 
population.
    The third point is that family members may be the 
traditional transportation providers, but they are not always 
available, and seniors cannot always access traditional or 
standard transportation options. The health and mobility 
limitations that made it difficult or impossible for them to 
drive can make it impossible for seniors to access community 
transportation systems and services. This means that public 
transit, paratransit, taxi voucher programs, and many other 
transit options may not work for seniors, especially those in 
the 85-plus age group.
    The fourth point is that some good things are happening in 
traditional transportation services. Some systems and services 
are responding to the problem by trying to be more senior-
friendly. What it means is that transit providers are open to 
developing innovations and many times do develop innovations 
such as door-through-door or door-to-door service, 
transportation escorts, even trip-chaining, in order to be more 
senior-friendly.
    The Beverly Foundation has joined with Community 
Transportation Association of America to undertake a study of 
these innovations so we can share those with other 
organizations throughout the country. We expect our report to 
be finished by the end of the year.
    Point No. 5 is that nonprofit groups are also responding to 
the problem. They are responding in the way that both Terry and 
Stephan have discussed. Communities know that traditional 
services cannot do everything, so they are creating a broad 
range of supplemental or complementary programs, many of which 
address both quantity and quality of life transportation, 
``quantity'' meaning for the essentials, such as going to the 
doctor, and ``quality'' meaning for going to the grocery store, 
to visit the husband in the nursing home, and to do all kinds 
of personal things. Both are important, and I think public 
policy needs to recognize this.
    We have been looking at these kinds of programs for the 
last 5 years, and we have undertaken what is called a STAR 
Search Program. We have studied 400 of these programs 
throughout the country. We have identified best practices. We 
will have 500 by the end of the year and will have given 17 
awards for excellence for some of the really good programs.
    The sixth point is that such programs are what we call 
supplemental transportation programs for seniors, or STPs, 
ranging from what might be considered high-cost, high-
maintenance to low-cost, low-maintenance programs. For example, 
a program that purchases and owns vehicles and hires drivers, 
schedulers, and other staff would probably be in the high-cost, 
high-maintenance category, meaning that it may have a budget of 
around $150,000 or more.
    Alternatively, one that has volunteer drivers, volunteer 
automobiles, and limited paid staff would probably be in the 
low-cost, low-maintenance category. This means that even in 
economic downturns and when communities and community groups 
have limited funds, they still can meet the transportation gaps 
faced by many seniors. Community organizations throughout the 
country are tapping their enormous volunteer pools and enabling 
volunteers to help seniors get where they need to go in a 
senior-friendly way.
    We have just completed a pass-ride pilot in Pasadena that 
is at the lowest of the low-cost kinds of programs that can be 
adapted in any community.
    In conclusion, now is the time to take action. There are 
indeed gaps in transportation, gaps in driver education and 
support, gaps for seniors who do not drive, gaps that 
caregivers face in trying to provide transportation to seniors, 
gaps in quantity and quality of life transportation, gaps in 
the availability of supplemental transportation, gaps because 
services are not coordinated.
    Today we have an opportunity to fill those gaps and to 
shape the future, to provide the incentive for public 
transportation to do more than provide point-to-point transit, 
to encourage efforts by paratransit services to make 
adaptations that will improve their service to seniors, to 
create new opportunities for nonprofit organizations to 
initiate and expand their services, to mobilize America's 
volunteer force to become drivers for senior transportation 
programs, to support both the concept and the development of 
low-cost, low-maintenance transportation programs, to improve 
senior mobility management through better service coordination, 
and finally, to realize that by making transportation senior-
friendly, it improves transportation for seniors and for 
Americans in all age groups.
    Thank you.
    Ms. Siggerud. Thank you.
    [The prepared statement of Ms. Kerschner follows:]

    [GRAPHIC] [TIFF OMITTED] T9855.038
    
    [GRAPHIC] [TIFF OMITTED] T9855.039
    
    [GRAPHIC] [TIFF OMITTED] T9855.040
    
    [GRAPHIC] [TIFF OMITTED] T9855.041
    
    [GRAPHIC] [TIFF OMITTED] T9855.042
    
    [GRAPHIC] [TIFF OMITTED] T9855.043
    
    [GRAPHIC] [TIFF OMITTED] T9855.044
    
    [GRAPHIC] [TIFF OMITTED] T9855.045
    
    [GRAPHIC] [TIFF OMITTED] T9855.046
    
    [GRAPHIC] [TIFF OMITTED] T9855.047
    
    Ms. Siggerud. Ms. Markwood.

  STATEMENT OF SANDRA MARKWOOD, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, THE NATIONAL ASSOCIATION OF AREA AGENCIES ON AGING, 
                         WASHINGTON, DC

    Ms. Markwood. Thank you.
    Good afternoon. My name is Sandi Markwood, and I am the 
Chief Executive Officer of the National Association of Area 
Agencies on Aging. N4A represents the 655 area agencies on 
aging in this Nation, as well as being the voice in Washington 
for the 243 Title VI Native American aging programs. We are 
proud to have the Arlington County area agency on aging as one 
of our members.
    Across the country, N4A is working with area agencies and 
Title VI agencies to promote home and community-based services. 
Additionally, area agencies and Title VI agencies plan, 
coordinate, and deliver a wide range of services, including 
home-delivered meals, chore services, home health care, and 
transportation services.
    We are pleased to be here this afternoon because we know 
that even the best aging services are of little value if people 
cannot get to them.
    Transportation services consistently rank as one of the top 
three issues that older adults and their caregivers call the 
National Eldercare Locator looking for assistance with. The 
Eldercare Locator is a toll-free number and a website that N4A 
and the National Association of State Units on Aging, together 
with the Administration on Aging, provide to older adults and 
their caregivers to find aging services throughout the country.
    What we find is people calling in to the Eldercare Locator, 
looking for nursing home placement for an older adult, when 
what they really need is transportation on a weekly basis to 
dialysis.
    For many AAAs, especially those in suburban and rural 
areas, transportation is their No. 1 concern. Transportation we 
know is the vital link between home and community for older 
adults, and actually, for all adults, for all Americans, but it 
is particularly an issue for older adults who have fewer 
options.
    Older adults, like younger adults, like younger people in 
general, depend on the automobile for the majority of their 
trips. We have already heard the statistics. Older adults are 
driving. They are driving because they want to. They are 
driving because they need to.
    We have also heard the statistics about the fact that there 
are numerous factors that impact older adults as they age that 
also impact their driving--vision problems, cognitive 
limitations, side effects of medications, slower reaction 
times, as well as muscular difficulties that can make driving 
more difficult.
    The tragic event in Santa Monica last week emphasizes the 
need to develop older driver retool programs, to get the issue 
of assessing your driving ability out into the public and not 
to make it an onerous task, but something that people do 
naturally, from the time they are in their 30's, 40's, 50's, 
60's, and up, to determine whether any impairment that they 
have may affect their driving ability.
    The National Highway Traffic Safety Administration is doing 
a great deal of research in the area of older driver safety, 
and our organization's Area Agencies on Aging are working with 
NHTSA to get this information out to older adults and their 
caregivers. But we are also partnering with the Grand Driver 
Program that is run through the American Association of Motor 
Vehicle Administrators and also the other AAA group, the 
American Automobile Association, has also taken this issue on. 
NHTSA is also working with the American Medical Association.
    This is an issue whose time has come. It is an issue that 
we all need to get behind and make sure that we have the 
programs, the policies, and the funding in place to be able to 
address.
    Looking at the issue of senior mobility, we need to look at 
it as a continuum, we need to look at it as an issue from 
driving to the fact that once people stop driving, they focus 
in and rely on their friends and families. But oftentimes their 
friends and families have conflicts, and they feel as if they 
are imposing on their friends and families for these mobility 
issues. So volunteer driving programs are key, and they are 
ones that we need to find additional incentives to be able to 
promote on an even broader basis.
    Additionally, we know that older adults, like all adults, 
are not relying as they should on public transportation. We 
also know the statistics that if you do not rely on public 
transportation when you are young, you are a lot less likely to 
rely on it when you become older.
    So I think there need to be more programs that are focused 
in on getting all adults and older adults acclimated for the 
use of public transportation that does exist, and we need more 
funding and more support for more public transportation options 
as well as paratransit options.
    When you are looking at the issue of older driver safety, 
when you are looking at the issue of senior mobility in 
general, the time is now. The aging of the baby boomers is upon 
us. Now is the time that we have to plan and to act to meet the 
senior mobility transportation needs. We cannot wait any 
longer. It is a wonderful testament to Congress that we are 
holding this hearing today, and we are looking forward to the 
reauthorization of TEA-21 as well as down the line to the Older 
Americans Act reauthorization, to get more funding and support 
for these critical programs.
    Thank you.
    Ms. Siggerud. Thank you.
    [The prepared statement of Ms. Markwood follows:]

    [GRAPHIC] [TIFF OMITTED] T9855.048
    
    [GRAPHIC] [TIFF OMITTED] T9855.049
    
    [GRAPHIC] [TIFF OMITTED] T9855.050
    
    [GRAPHIC] [TIFF OMITTED] T9855.051
    
    [GRAPHIC] [TIFF OMITTED] T9855.052
    
    [GRAPHIC] [TIFF OMITTED] T9855.053
    
    [GRAPHIC] [TIFF OMITTED] T9855.054
    
    [GRAPHIC] [TIFF OMITTED] T9855.055
    
    [GRAPHIC] [TIFF OMITTED] T9855.056
    
    [GRAPHIC] [TIFF OMITTED] T9855.057
    
    [GRAPHIC] [TIFF OMITTED] T9855.058
    
    [GRAPHIC] [TIFF OMITTED] T9855.059
    
    [GRAPHIC] [TIFF OMITTED] T9855.060
    
    That was a wonderful set of opening remarks. I think it 
lays a very strong foundation for getting into the more 
detailed questions that we would like to go to at this point.
    Our first theme today is looking at current programs that 
address transportation for seniors and the extent to which 
these programs are meeting their needs. I think there are a 
couple of useful ways that we can break this out.
    One is by the issue of density--rural, urban, and suburban 
elders and the extent to which programs are meeting their 
needs--and the distinction between seniors and the old-old or 
the frail elderly, who really have some different needs.
    I think it might be useful at this point to start by 
talking about seniors living in a rural setting and the extent 
to which programs are meeting their needs.
    Mr. Burkhardt has done a fair amount of research in this 
area, and perhaps he can start us out.
    Mr. Burkhardt. Thank you. I would be happy to.
    Rural areas are particularly difficult for seniors because 
there are fewer transportation options. Part of the good news 
is that between the 1990 Census and the recent National 
Household Travel Survey, seniors own automobiles at much, much 
greater rates than they did before, and there are now 
relatively few seniors in rural communities without automobiles 
in their households.
    The bad news is that many small communities have no taxi 
service, they have no inner-city bus service, they have no air 
connections, and there are very few ways to get around if you 
don't have a car. The bad joke is that if you go blind in Des 
Moines, they take away your license, and if you go blind in 
Sioux City or Cedar Rapids, they let you drive, because when 
there are no options, there is still a necessity to get around.
    Rural areas generally have older populations than to urban 
areas. In 1997, 18 percent of the rural population was elderly 
compared to 15 percent of the urban population. There were also 
greater concentrations of the oldest elderly in rural areas. 
There were also greater concentrations of poor elderly in rural 
areas. There are longer distances to travel to almost any kind 
of service, but in particular to medical services. As medical 
services become more specialized, rural areas lose their 
hospitals, and people have to travel longer and longer 
distances to get to the medical services that they need.
    We have heard in particular that this is an issue for 
dialysis, and as dialysis centers cluster around metropolitan 
regions, and rural residents take 3- and 4-hour trips to get to 
dialysis centers for dialysis services.
    So there are particular transportation challenges in rural 
areas. The growth of the rural public transit industry is one 
really shining bright spot in this picture, as are a few other 
trends, one in particular being that of innovation. Rural 
transit operators have been among the most innovative operators 
in the country. There is lots of coordination going on because 
there is not enough money around to do anything but coordinate 
in rural areas.
    So we have some good news and we have some not-so-good news 
in rural areas. We see communities from Portland, ME to 
Portland, OR, from Louisiana to Idaho, from Florida to 
California where there are great examples of good rural public 
transportation systems, some of which rely on volunteers, some 
are more elderly oriented than public-oriented. These are sort 
of fledgling services that are being developed, and we hope 
that hearings like this can inspire the rest of the country to 
adopt similar kinds of services.
    Ms. Siggerud. Thank you.
    Are there other comments from the panelists on rural 
issues? Does anyone else care to weigh in on that?
    Dr. Rosenbloom. Jon was saying there are some good rural 
systems out there. I think they are all good systems. They are 
facing overwhelming odds, and their services are a drop in the 
bucket, but they are all incredible. It is an honor to meet 
some of the people running these systems and the volunteers who 
are involved with them. They clearly need more funding and more 
help.
    But I also think we need to be looking at alternatives to 
build on what Jon was calling innovations. We need to find ways 
to expand volunteer systems. We need to find ways to link land 
use, growth, and service delivery with transportation. When 
people are going 4 hours into the center of a city, 70, 80, and 
100 miles away for dialysis, we need to talk about--dialysis is 
much more portable than it used to be. We need to talk about 
partnering with people who can bring the services to older 
people. Those of us in the transportation community are always 
blamed when people cannot get somewhere. People build things in 
out-of-the-way places, in ridiculous places, and it is our 
fault they cannot get there.
    We need to work with people who are placing services, who 
are organizing services, who are delivering services for older 
people and those in rural areas and so forth to see if we 
cannot come to some accommodation, if we cannot find some way 
so we do not have to transport someone who has to go to 
dialysis 3 times a week, has to be in a van 12 to 24 hours a 
week. That is ridiculous. There is never going to be a way to 
overcome that problem unless we start looking at how services 
are delivered and coordinating with those folks as well.
    Dr. Kerschner. I think there are some rural areas that are 
the forefront of transportation innovation. It seems to me 
there has been a mindset about public funding in 
transportation, particularly the 5310 Program that provides 
buses and vans at 80 percent of the cost. So it was a real 
incentive to buy buses and vans, but buses and vans do not 
necessarily work in rural areas, and I think the rural areas 
have begun to say, as Sandi said, ``We really do need to have 
the involvement of volunteers and the involvement of volunteer 
vehicles because many of these seniors, particularly people who 
go to dialysis, need to have a transportation export or a 
transportation caregiver to stay with them while they are 
there--they cannot go off and leave them.''
    So it seems to me that the rural areas have really come up 
with some wonderful, innovative ways of integrating the 
volunteer transportation with the traditional public and 
paratransit services to better serve their population groups, 
and we might learn something from them in urban areas as well.
    Ms. Siggerud. With that, why don't we move to urban areas? 
Presumably, the availability of transit and taxi's and other 
types of transportation is better in suburban and urban areas, 
but we know there are problems. I would like to move at that 
point to the extent to which these programs are in fact serving 
seniors who need transportation in these areas.
    Dr. Rosenbloom, would you like to start?
    Dr. Rosenbloom. First of all, I am alarmed often when I 
give public presentations and invariably, somebody gets up from 
the audience and says, ``There is an ADA paratransit system in 
my neighborhood, and that is what is going to take care of my 
elderly mother, myself,'' or whomever.
    In fact, there is no way that those small services, even if 
most older people qualified for them, are going to meet all the 
needs of older people.
    First of all, in an urban area increasingly, transit 
operators have cut ADA service back to within three-quarters of 
a mile of fixed-route buses and only during the hours that 
those buses run. That is all they are required to do by the 
ADA. They are not required to serve any other areas. 
Increasingly, because of the high cost of providing services, 
urban transportation systems have cut back the ADA services 
they provide geographically. So a huge percentage of older 
people are not even eligible by reason of geography. They 
simply do not live in an area where ADA services are provided.
    Second, one of the outcomes of the high cost of the ADA 
services is that many of these systems have become very, very, 
very strict about their eligibility criteria. They fail to 
certify older people constantly.
    It is really important to understand that simply being 
unable to drive does not make you eligible for most ADA 
paratransit services. You must have some fairly significant 
disabilities that prevent you from getting on and off buses.
    As a result a lot of older people who cannot drive or 
should not drive cannot get ADA service. Those are good 
services, and they should be expanded, and particularly for, as 
Helen said the over 85 group. But for all the rest of our 
senior folks who maybe should not be on the road, who may have 
minor disabilities, the ADA services are not the answer. We 
need to be looking for a family of services, some that Jon 
listed, some that I talked about. We cannot just rely on one 
source.
    Ms. Siggerud. Ms. Lynch, you administer a program in an 
urban/suburban area. Would you care to comment?
    Ms. Lynch. I guess I would like to echo what has been said 
here, that what we really need is an enhanced program of all 
the various modes of transportation, because even the ones that 
we have, which are extensive in their type--we have a program 
that uses volunteers, we have programs that use taxicabs. We 
rely on vouchers. We rely on ADA paratransit. But with all of 
those, we know that--I do not have good numbers because we do 
not have those--but we know that every day, people call us for 
service, and we are unable to meet their needs.
    So funding is a critical point. People who would pay for 
the service but cannot afford--we have people in our country, 
and we are one of the most affluent counties in this country, 
but we have people who cannot afford the $2 per one-way trip it 
takes to use ADA paratransit if they are going to go to 
dialysis 5 days a week. That is 10 trips; that is $20 a week. 
They do not have the money to do that. That does not even count 
the public funding. That is what we expect people to fund.
    So we really need a family of services, and we need it in 
greater numbers for a whole array of people. Let me tell you 
one thing in this area is that we are in an area that is a 
multi-ethnic, multilingual community, so that we also have to 
focus--and it costs money--on answering the phone and speaking 
in our area Korean, Vietnamese, Spanish, Russian, Amheric, just 
to name the top five, because we have 45 languages spoken among 
our elders.
    So there is a whole array of issues.
    Ms. Siggerud. Ms. Markwood, please go ahead.
    Ms. Markwood. To add to that, when people believe that the 
public programs are going to be able to meet the needs, the 
fact is that with limited funding, I know under the Older 
Americans Act, the Title III-B funding, which we use to fund 
transportation services, is limited. So instead of being able 
to take any trip you want, it is specifically limited in most 
communities just to medically necessary trips to and from a 
doctor's appointment, or to and from dialysis. So those 
appointments to see family and friends, to go to church, to do 
things that are really critical to a person's quality of life, 
there may not be a transportation option available to older 
adults to be able to get to those necessary places.
    Ms. Siggerud. Mr. Kline.
    Mr. Kline. In the urban areas, I think money is certainly 
at the root of solving this problem, but there is another 
issue, which is that in metropolitan areas, you have a lot of 
different jurisdictions, and a lot of the transportation 
services provided, whether through a public entity or through a 
nonprofit, kind of stop at the jurisdictional line. A lot of 
that ends up, because of money reasons, the county or the 
nonprofit cannot afford to provide transportation beyond that, 
but a lot of it actually gets down to planning issues--is there 
the possibility for a central coordinated planning entity that 
would allow the different nonprofits and Government entities to 
collaborate, work together, figure out how to best maximize the 
routes that they are using for these senior vans and buses. 
That is starting to take place at some local levels, that they 
are working together, and that seems to be not the wave of the 
future, but an important method to fix part of this problem.
    Of course, planning itself is an expensive endeavor, just 
getting the people either around the table to plan for the 
future of the services or the centralized resource that will 
allow different buses to be plugged into a central system. That 
takes money also.
    Ms. Siggerud. Anyone else on that issue?
    Dr. Kerschner.
    Dr. Kerschner. I have just a quick comment. I think one 
thing that I would like to say is that in planning 
transportation, I think we sometimes assume that the only thing 
that seniors need is to go to the doctor, and I hope there is 
more to life when I become a senior than going to the doctor. I 
think that reflects the rationale for setting up a lot of these 
transportation programs; they really are single-purpose.
    Also, particularly in paratransit, they are really not set 
up to meet many of the needs of seniors. For example, can they 
provide transportation escorts that many seniors need? Many of 
them cannot. Some of them try very hard. Can they provide door-
through-door transit, actually going through the door and 
helping someone get to the van or the vehicle? No; it is very 
hard for them. Can they provide trip-chaining, where you make a 
stop and another stop and another stop? They are not set up for 
that; it makes it really hard for them. Do they have geographic 
boundaries? As Stephan said, yes, they have geographic 
boundaries, and maybe somebody's doctor or their church or 
something is outside the geographic boundary of this particular 
program. It is isolating people in their communities. Do they 
provide quantity and quality of life transportation? All of 
these things are very important, and many of the systems and 
services, particularly paratransit, are not really set up to do 
that, and we have to recognize that. Perhaps they can develop 
innovations that will help them do that, but maybe there are 
some other options that we should be exploring.
    Ms. Siggerud. Why don't we now move to a discussion about 
the needs of the old versus the old-old, the frail elderly. 
There are different kinds of services required, for example, 
Dr. Kerschner talked about seniors who need door-to-door 
service versus seniors who are in fact able to be more mobile.
    Dr. Kerschner, would you care to start?
    Dr. Kerschner. Yes, I would. I tend to believe that our 
real area of emphasis now--the 65-plus population is really 
very important, and I acknowledge that--but the 85-plus 
population is the population that may in fact not be driving or 
may need to give up their keys. So when we talk about the 
problems of senior transportation, I think we need to really, 
really hone in on that population and take a hard look at it. 
That is the population that may in fact need an escort.
    Now, some interfaith programs that create these 
transportation programs say that that escort is not just to 
physically help someone get into the doctor's office or into 
the social service agency, but if that person hears bad news, 
that escort is there to take care of them and help them if they 
do hear bad news.
    So it is a supportive--in a sense, it is social support in 
addition to transportation support. I tend to call them 
``transportation caregivers,'' if you will. For that window of 
time, these people are providing caregiving while they are 
providing transportation.
    The door-through-door service is extremely important. Many 
programs provide door-to-door. It is very hard for the driver 
of a van that may have fix or six people in it to go up to the 
door and help someone. They are not supposed to leave the van. 
They really worry about what might happen with people in the 
van, so they cannot really do that--and yet someone may not be 
able to walk to the curb let alone just to the driveway to get 
to the van.
    So I think that that door-to-door or door-through-door 
service is absolutely critical if we are really going to meet 
the needs of people who are frail.
    I hope that policymakers will really hear the call that I 
think almost everyone here has talked about--the quantity and 
quality of life transportation. The essentials are important, 
but the nonessentials are important. I think going to the 
hairdresser is essential, quite honestly. A lot of people call 
that nonessential. But these are very essential parts of our 
lives. Why do we limit the lives of older adults because they 
hit 85? Why do we do that? I really have to question that, and 
we do it through the establishment of our transportation 
programs, and it is a real shame.
    Mr. Burkhardt. If I could jump in there, we sometimes talk 
about life-sustaining activities, and then there are life-
enriching activities, which include visiting a loved one in a 
senior home or going out to a concert or doing something in the 
evening when lots of public transportation services do not run, 
or going to religious services on the weekend when lots of 
public transportation services do not run. It is really 
critical that we begin to match our transportation services to 
the great variety of transportation needs and the great variety 
of people out there.
    There are people who are seniors, who are old and do not 
have much money, and there are seniors out there in certain 
communities who cannot get a ride no matter how much money they 
have. So everybody has some differences, and we have had people 
in our focus groups say to us, ``I may not feel like going for 
a ride today, but I might want a ride tomorrow.'' So there are 
even differences from day to day. That is why it is so 
important to do what Sandi is talking about in terms of getting 
a family of services. Some days, they may need special, hands-
on care. Some days, a person may be fine, and they can be 
independent and on their own.
    We need to have this range of choices. We need to have a 
range of payment options that goes along with it, but not just 
have transportation services available from 9 to 5, Monday 
through Friday.
    Ms. Siggerud. Other comments? [No response.]
    OK. I think we will move on to our second theme for this 
afternoon's discussion, and that has to do with coordination of 
transportation services for seniors.
    Several of our panelists today have talked about some of 
the barriers to coordinating transportation services--for 
example, the many jurisdictions in urban areas, the many 
existing programs that are funded from different Federal and 
State pots of money.
    I guess what I would like to hear people talk about, then, 
is what are the obstacles and what solutions do they know of in 
order to achieve better coordination with the goal of actually 
improving efficiency, affordability, and/or availability of 
transportation services for seniors.
    I think our most published expert on that on this panel is 
Dr. Burkhardt--I am sorry--Mr. Burkhardt. Would you please go 
ahead and address those issue?
    Mr. Burkhardt. Honorary doctorate degrees are always good.
    Ms. Siggerud. You have published an impressive amount of 
research; that is why I got confused.
    Mr. Burkhardt. Coordination has been tough in a number of 
areas. It basically means sharing power and sharing resources. 
This comes up against some individuals' or organizations' need 
to have the limelight to themselves or to have fiscal or 
political control. So sharing is perhaps something that is not 
automatic but has lots of benefits. You can get more money, 
more efficiency, more productivity, and certainly more mobility 
if there is transportation.
    We have found that to get some of these benefits, 
particularly the economic ones, that if you have particular 
strategies, it works out best. One strategy would be getting 
new revenue sources. Another strategy would be decreasing the 
cost of providing the services. Another strategy is increasing 
efficiency and productivity, and then finally, increasing 
mobility.
    There are examples all over the country of people doing 
things that are innovative in coordination. A number of public 
transit agencies are coordinating with the Medicaid Program to 
provide trips for Medicaid patients at substantially reduced 
costs, and the transit agency gets more money, and the Medicaid 
Program saves money.
    Similar kinds of arrangements can be made with transit 
agencies and school districts. In terms of cost savings, one 
that we have written about is STAR in Arlington, really saving 
money versus the Metro Access System, and providing services 
that are patronized by a factor of almost ten to one. So, 
Terri, you must be doing something right.
    There are services all over the country. One of the really 
interesting ones is in the suburban Detroit area, where the 
local public transit authority is coordinating services across 
a wide range of different jurisdictions, so that for all these 
jurisdictions, if they buy into the metropolitan-wide compact, 
the ``SMART'' system, which is the large regional transit 
system, will provide training and vehicles, and the local 
communities provide the operating funds, sometimes even 
providing drivers. So as long as the local communities agree to 
be associated in the special taxing district, everybody is 
working together.
    All of those things show the potential benefits of 
coordination. Again, it is not necessarily something people 
come to comfortably. As Stephan said, the planning takes a lot 
of time. You have to talk to people who may not talk the same 
language you do--the acronyms are different, the client types 
are different, the service needs are different. But if people 
remain involved, then, for persons who are elderly or persons 
who have disabilities or persons who need additional assistance 
in learning, all of their needs can still be met, and we do not 
have three transportation systems out there, we just have one 
transportation system. So it is possible.
    Ms. Siggerud. Ms. Markwood, did you have anything to add 
from some of the agencies you are familiar with?
    Ms. Markwood. The interesting thing is that a few years 
ago, I did a project called ``Aging of the Population and Aging 
of the Infrastructure,'' looking at the parallels between the 
two, because infrastructure is aging, and the population is 
aging, and the fact is this really provides an opportunity for 
the two systems to really look at each other in a new and 
integrated way.
    In saying that, I think there are barriers. There are 
barriers in funding, there are barriers in jurisdictional 
issues, and there are also barriers because traditionally, a 
lot of the folks who work in the transportation arena--county 
engineers, public works directors, highway department 
engineers--talk an entirely different language than we do in 
human services. So when you are talking about coordinating 
between human services and the transportation arena, there are 
additional barriers even in nomenclature and acronyms that 
people throw out that need to be overcome to get everybody at 
the table on an even plane to be able to deal with these issues 
and to deal with them well.
    In saying that, as Jon pointed out, there are a number of 
different communities that have been able to overcome them, and 
the key there is to get everybody to the table and to try to 
reduce the turf-ism associated with funding resources, to get 
people to realize that improving transportation services for 
older adults, whether it be highway transportation services, 
public or paratransportation services or driving safety issues, 
improves transportation services for everyone in that 
community.
    I think that once you get that issue across, it changes the 
conversations that you are having at the table, and then people 
can look for the common goals and ways to get beyond the 
barriers of jurisdictional issues like they did in Detroit and 
to get beyond the issues of funding the best they can without 
additional funding to be able to pool resources to make these 
programs work.
    There are barriers, but there are also opportunities, and I 
think that if you can pull people together to realize, again, 
that improving transportation for older adults improves 
transportation for all ages, then you have overcome one of the 
biggest ones.
    Ms. Siggerud. Mr. Kline.
    Mr. Kline. I think there are a couple of efficiencies that 
can be realized. One of them that Jon spoke of before deals 
with Medicare, which for seniors only pays for the use of 
ambulances to get them to emergency health care situations. It 
turns out that there have been a lot of payment in ambulances 
but for non-emergency use situations, and what Medicare should 
allow is transportation for medically necessary transportation 
and perhaps a significantly lower degree of intensity. So it 
might be a specialized van they could use to take someone to a 
doctor's appointment or a taxi. If it is medically necessary, 
Medicare should pay for it. It might not necessarily cost 
Medicare more money for that given the extent to which it is 
being used now.
    A different situation in Detroit--our Commission on Jewish 
Eldercare Services is a collaborative of seven different Jewish 
agencies that provide social services for older adults. All of 
them had their own vans and buses, and they got into a common 
system and figured out how they could maximize the use of them. 
They got rid of some vans, they came up with a common insurance 
policy for all of them. That is done at the nonprofit level. 
There are similar methods that can be done with for-profits or 
for Government entities.
    We talked briefly about the use of public buses in 
different communities, using schoolbuses, perhaps, on weekends 
or evenings for programs that involve seniors. So those are 
some of the ideas that we are talking about at the local level.
    At the Federal level, over the last 6 or 8 months, the 
Federal Transit Administration and the Administration on Aging 
have started a formal collaboration on different senior 
transportation issues which seems to be starting with quite a 
degree of enthusiasm from both agencies. There are a lot of 
other agencies that deal with seniors and deal with 
transportation issues that could be brought into that 
collaboration, whether it is the Department of Housing and 
Urban Development or the Department of Labor or the Corporation 
for National and Community Services. There are a lot of 
different programs in the Federal Government that deal with 
senior issues and deal with transportation and senior issues, 
and that should be carried over to the Federal collaboration.
    Ms. Siggerud. Ms. Lynch.
    Ms. Lynch. The piece I can add is that in terms of the 
collaboration that folks are talking about, one of the reasons 
that we have had the degree of success that we have had is that 
our Commission on Aging is a board-appointed commission that 
advises them, and the area agency on aging has sponsored a 
transportation committee for about 10 years. It has included 
within that committee senior advocates, people from our office, 
people from public works, from the Red Cross, which uses 
volunteer drivers, the taxicab companies, the private vendors, 
and we have looked at an array of issues, so that once STAR had 
conceptually begun to be Arlington's prearranged ADA program, 
or transportation program, that was what gave us the venue to 
add on to STAR. STAR was there to begin with, and we could see 
what were the pieces that were missing--the assisted 
transportation or door-through-door was one, a temporary 
arrangement, so that we can focus all the folks together.
    The piece that we have thus far had zero success with--and 
it is a goal for the future--is that Virginia's Medicaid 
transportation is not involved in this at all. So that is a 
piece that we need to work on.
    Ms. Siggerud. Thank you.
    Now I think we will move on to our third theme this 
afternoon. You have heard all of our panelists give some 
examples and talk about interesting and innovative senior 
programs in their communities. I think we will actually turn to 
that topic at this point and ask our panelists to comment on 
what are some of the hallmarks or characteristics of successful 
senior transportation programs that they are familiar with and, 
knowing that, how can that information be communicated with an 
eye to replicating that elsewhere.
    I think Dr. Kerschner has done quite a bit of research in 
this area, and perhaps you can comment first, please.
    Dr. Kerschner. Thank you.
    Yes, as I mentioned earlier, our foundation joined with the 
AAA Foundation for Traffic Safety about 4 years ago and started 
what we called the STAR Search Program. We hoped at that time 
that we would maybe identify 50 or 75 or 100 of these senior 
transportation programs around the country, and with our first 
little inquiry, we got 350 responses within about a month.
    We decided that it was a hotter topic than we even 
realized. Actually, we ended up in our data base with completed 
surveys of 237. Now, several years later, we have 400 surveys, 
and we expect to have 500 at the end of the year. We have given 
14 awards for excellence.
    This has been an interesting agenda because we have looked 
not only at urban but also rural and suburban programs, so we 
have a real mix and a real sample of what is going on out 
there.
    I was asked today if I thought we had about maxed out on 
this, and I said no--I think it is just the tip of the iceberg. 
There are wonderful things happening in communities around the 
country.
    I have mentioned some of the things that I think are 
absolutely critical to these supplemental, if you will, 
transportation programs for seniors in terms of best practices. 
I think there are some best practices with regard to escorts. 
That is a key component for many of these programs and 
something that people need to think about. If you will, 
``transportation escorts'' or ``transportation caregivers'' is 
what we call them.
    I think also the issue of volunteer drivers is a really 
important component. Many of them have a mix of volunteer as 
well as paid drivers, and that becomes an absolutely critical 
part of a really good dynamic and integrated program. Many of 
them include both, and they work very well together, and they 
integrate very well within the community.
    Now, I think the fact that a large number of these include 
transportation by automobile is very satisfying to older 
adults. Older adults would rather go in an automobile than any 
other mode of transportation. So the private automobile helps 
out a lot. Even in the volunteer programs, many of the 
volunteer programs will allow people to take their wheelchairs. 
They will say, ``Don't bring the Cadillac wheelchair, bring the 
little, bitty wheelchair with you if you can, so we can put it 
in the trunk of the car.'' I think there are also some best 
practices just in terms of models. As I mentioned earlier, many 
of these programs are interfaith programs. There is a Shepherd 
Center Program up in Kalamazoo, MI. It is a wonderful program. 
When we first looked it, it had zero budget. It now has a 
budget of $9,000.
    These are what I would describe as low-maintenance, low-
cost programs. They provide escorts, and the escort stays with 
the person, but they have a unique fundraising mechanism, 
because as they go into the doctor's office or whatever social 
service they are taking people to, or many times the grocery 
store, the transportation escort will just drop off a card at 
the desk and say, ``This transportation was provided by 
Shepherd Centers of America,'' and it has achieved many 
unsolicited donations to the program, because physicians and 
other people are very appreciative of this. It is a unique 
fundraising tool, and I think that is an important component of 
these programs that have no budget. That is why the program now 
has a $9,000 budget.
    A program in Indian country, out in the San Felipe Pueblo 
outside Albuquerque, sent us in a response, and we took a look 
at it, and I thought, well, this is not really any different 
than most programs--it has a van, and they take seniors 
places--but let us just take another look. So I talked with the 
people out at San Felipe, and they said, ``No--this program is 
wonderful because it allows us to take seniors to places they 
would never--many of them have never been off the Pueblo--they 
can go to places in Albuquerque, maybe even to the Grand Canyon 
and to other places, and it allows them to play the role of 
elders in our community.'' It allows them to have that status 
and that background and that experience, and I think that is 
unique.
    There is also a program in Jefferson County, KS. As you 
might guess, that is a very rural area. It really has become, 
if you will, the public transportation program. It is 
automobile-based, but it has not only volunteer but paid 
drivers. The program is a wonderful program, and the seniors 
say that without that program, there would be no transportation 
available in the whole county. It is run very efficiently.
    I have to comment about our Pass Ride pilot that we did in 
Pasadena recently. It is a very unique program. It is a program 
that is totally volunteer. The idea was that we could develop 
the program without adding staff to an organization--and I have 
to tell you, if The Beverly Foundation can do it, anybody can 
do it, because we are not a service provider. We are a research 
foundation.
    So what we did was organize it according to the idea that 
the riders are recruited by service agencies, the riders 
recruit their own drivers, the drivers drive for the program, 
and then we reimburse the drivers for some of their costs for 
providing transportation.
    That means that we do not have to schedule rides; they are 
scheduled between the rider and the driver. We maxed out at 25 
riders and 25 drivers. That is as many as we wanted. We 
provided rides for $6.20 per ride. Now, that is compared to--
and it is not really fair to compare it--but it is compared to 
$32 per ride by the local paratransit. It is not saying that 
this is any better; it is saying that it is a really good 
option for people to consider.
    Ms. Siggerud. Thank you.
    Mr. Burkhardt.
    Mr. Burkhardt. I will offer a couple of comments here. You 
asked what is good transportation service, and how do you know, 
and the ``How do you know?'' question is always a good one.
    I would say that a good program for elders is one that has 
a real customer focus, one where the older persons' needs are 
really catered to, and people are treated with dignity and 
respect. There should be elements of customer choice so that a 
customer can choose where to go, and for different kinds of 
trip purposes. A system that has more than just trips to the 
doctor is going to be preferred over a system that has only 
medical trips. Grocery trips, trips to nursing homes to visit a 
loved one and trips for personal business--these are really 
important.
    Having coordination with other kinds of services so that 
the administrative costs are shared by a wide variety of 
programs is important. This broad spectrum of services in terms 
of wide ranges of hours, wide ranges of destinations, wide 
ranges of days of the week--in fact, the closer you get to a 
24/7/365 service, the better off these services are.
    Finally, this family of services--being able to have an 
escort when an escort is needed, being able to use public 
transportation when public transportation is needed, getting 
financial assistance when it is financial assistance that is 
needed to get the ride--having all these things build into a 
program would make a highly effective and highly customer-
oriented program.
    Ms. Siggerud. Mr. Kline.
    Mr. Kline. I want to comment on the medical appointment 
issue. Nursing homes and institutional care is obviously a very 
important option and necessity for the aging population, and 
there are of course many great institutions out there. But a 
lot of seniors really want to remain in their homes and in 
their communities. The programs that provide only 
transportation to doctors and health appointments--they are not 
shortsighted; it is a question of money--but from our 
perspective, if that is the only time seniors can get out of 
their houses, they are not going to last very long in their 
homes and communities, and in Government practice, if we get 
more money for Section 5310--and we will talk about that in a 
minute--but if the services are geared only toward health 
systems, the transportation, then it is not going to be a 
significant step forward in this area, because I do not think 
that getting to synagogue on Friday night or Saturday, or 
getting to a nursing home--that cannot be considered a luxury 
if our purpose is to allow people to remain in their homes and 
communities.
    I think a lot of policymakers think of these kinds of 
things as fluff, and part of our job is to convince people that 
more than health care is a necessity when we are talking about 
transportation for seniors.
    Ms. Markwood. Following up on Stephan's point and on 
Terri's point earlier, the success of the Arlington program is 
in part because of the local community's support for that 
program, the fact that it was the board of supervisors in that 
community who took this on and appointed a transportation 
committee.
    So when you are looking at best practices and surveying 
them, I think local support is critical as well as a local 
dependable funding source which could bring in Federal and 
State funding as well. But there needs to be a dependable 
funding source, a dependable provider who is trained to be able 
to work with the older population. Whether they be volunteers, 
paid or unpaid drivers, people still need to be trained to be 
able to provide that door-to-door or door-through-door service.
    Coordination is critical to be able to maximize service 
potential. I think the one thing you have heard from everybody 
is that to ensure the quality of life of older adults, we 
cannot just limit transportation services to those medically 
necessary appointments; we need to look at transportation 
across the board and the quality of life of older adults.
    Ms. Siggerud. Dr. Rosenbloom.
    Dr. Rosenbloom. Jon and I have studied what transit 
operators have done, which I would like to put on the table.
    Somebody earlier mentioned that many of the current 
generation of older people have never really used public 
transit, and if they did not use it when younger, they would 
not use it when older. But there are a number of systems that 
have done transit or travel training for older people, some 
with disabilities, some without. Their experiences suggest that 
if you find a group of older people and show them how to use 
the bus, how to read schedules, how to figure out where to go, 
how to figure out where the bus stops are, how to use the 
accessibility features on buses, ridership increases 
dramatically among the people that you train. A lot of these 
folks had no idea where the bus went, and they were reluctant 
to find out, and suddenly realized that although transit was 
certainly not going to take care of all their trips, it might 
take care of some trips. Not only that--in I believe it was 
Eugene some of the drivers who were trained actually gave up 
driving when they realized what kinds of public transit options 
were available to them.
    I think this is a cheap, long-lasting, and very effective 
option that we ought to be spreading to other transit 
operators.
    Mr. Burkhardt. That is a great point, and in particular the 
Eugene, OR system made riding public transit a real 
accomplishment in terms of mastering a complex system, so this 
was not seen as a second-best option or third-best option but 
as something that was really a statement of empowerment. Sandi 
is right--it let people be very happy about walking away from 
driving.
    Ms. Siggerud. Thank you for transitioning us to the next 
sub-issue I wanted to get to under that topic. Are there other 
opportunities for communities to make use of their fixed-route 
transit systems and to make seniors comfortable with using them 
in addition to those that have already been discussed?
    Ms. Lynch. I guess the one piece I would add to that is--
Arlington has the opportunity, so I suspect many other 
communities do as well--to talk to the transit arranger to 
change routes. Many times, routes have been changed so they go 
right in front of one of the senior highrises or the new 
assisted living or the new whatever, to try to make it so it is 
particularly convenient.
    I will echo what happens when you do some training about 
how to use Metro's very complicated fare structure. Some of the 
senior centers did some training of their members, and they 
started to use it more. So it is a very effective tool.
    Ms. Siggerud. Other comments?
    Dr. Kerschner. I think this was mentioned a little bit 
before, but I think training drivers for public transit becomes 
a very important issue. In focus groups throughout the country, 
one of the reasons seniors say they do not want to use public 
transit is because the drivers are rude to them. They hurry 
them, they criticize them, and so forth. So I think driver 
training in public transit becomes a really important 
contribution to enable seniors to be able to use those 
programs.
    Dr. Rosenbloom. Problems is related to driver training is 
that public transit is geared toward the lowest common 
denominator. Today, public transit systems try to find a way to 
cram as many people on a bus as they possibly can, so if they 
have a few seniors, a few kids, a few commuters, etc., a few 
that--of course the drivers are always yelling at people to 
hurry up.
    But if we get transit operators to invest in what the 
industry calls ``route restructuring,'' finding new routes that 
meet the needs of different people, routing services to 
naturally occurring retirement communities, trailer parks, 
senior centers, places where older people want to go or where 
they live, providing extra service in the middle of the day, it 
is more likely that it will not be kids and workers riding in 
the middle of the day during the week--it will be older people. 
Drivers can then be urged to and trained to provide a better 
quality of service geared toward the people who are riding at 
that time of day or using those special services.
    I think this is really crucial. If you remember that the 
majority of older folks living in metropolitan areas are in the 
suburbs, we must provide effective public transit services in 
the suburbs, and that can only be done by route restructuring, 
it can only be done by looking at where routes go and how well 
they serve the needs of the senior population. Studies strongly 
suggest that older people will use public transit if it is more 
geared to their needs, both in terms of time and location.
    I think we have a lot of opportunity within public transit 
services. Why don't transit operators do it? They do not have 
enough money. That is going to lead into the next issue--it is 
not that all public transit services are resistant because they 
are not smart enough to figure this out. It is not because they 
go for the lowest common denominator because they know no 
better. It is because they do not have enough funding to do 
these kinds of things. We have to be looking at trying to not 
just fund them, but fund them to do specific things that will 
make services better for older people.
    I feel strongly that the two things have to go together. 
You cannot just throw money at transit operators. You have to 
insist on a quality and a kind of service for older people.
    Ms. Siggerud. That was an excellent transition into our 
final topic today, and this is where we give all of our expert 
panelists a chance to get on record and give advice to this 
committee and others, moving forward on these issues. We have 
an important reauthorization coming up--the TEA-21 legislation 
expires on September 30 of this year--and there are also other 
legislative opportunities coming before the Congress in the 
next few years.
    I would like to ask all of our panelists to comment on the 
opportunities that the TEA-21 reauthorization and other 
legislative opportunities provide in terms of improving 
programs to address senior transportation needs.
    I think I will call on Mr. Kline first, since his task 
force has quite a lengthy list of ideas in that area.
    Mr. Kline. Yes; we have no shortage of ideas in the area.
    TEA-21 provides a wonderful opportunity to highlight the 
issue for Congress to get up and say that the interests of 
seniors within the transportation planning process and the 
transportation provider process is really important, and it was 
the reason that we came together to form this task force.
    It is forums like this that provide an opportunity to get 
Congress to highlight the issue. We have had at this point I 
would say some success in highlighting these issues with 
Members. We have met with probably 20 percent of Members or 
staff who work on transportation on the Hill, and they are 
receptive. Obviously, they all have seniors in their 
communities, and they understand this issue empirically.
    The problem is that while we have a lot of ideas, and some 
of those ideas will be picked up, the first issue is really 
money. The first issue is money, and we have all talked about 
the need for increased resources in this area. The Section 5310 
Program is currently for fiscal year 2003 funded at about $91 
million. It is not going in the right direction; the 
administration has encouraged that the program be cut to $87 
million in the next fiscal year as part of its reauthorization 
proposal, and it would get up to probably a little over $97 
million by the end of a 6-year reauthorization process. We 
think that that is going in the wrong direction.
    As I mentioned in my opening remarks, we believe that there 
is $1 billion worth of unmet needs in the area of senior 
transportation. Probably the 5310 Program could use $400 
million of this for things like paying for operating costs, 
paying for replacing capital expenses by new capital for the 
increased need, and paying for some extra point-of-service 
contracts.
    So there is a lot of increased need in this area, and to 
date, the administration has, I think, failed to step up to the 
plate and take this on seriously. In their SAFE-TEA proposals--
which is their version of TEA-21--they have taken, I think, 
some of what we have said to heart, and they are issues that 
are mainly somewhat peripheral, I think, to the core points.
    They have included the concept of mobility managers, which 
would be kind of a one-stop shop, a person who would be 
knowledgeable of the interests of seniors and other 
communities, and it would be kind of increasing what they have 
done in the senior housing area, service coordinators; it is 
taking the concept of knowing what are the resources in the 
community and how can I help the individual consumers who need 
help. They have taken that idea to heart.
    They have included additional funding for planning for 
transportation. Now, we think there needs to be dedicated 
funding for planning for seniors, but at least they have tried 
to bolster some of their planning issues, and that is 
important.
    Probably most important from the funding perspective, while 
they have not agreed at this point to increase funding for the 
overall area, they have for the 5310 Program allowed the idea 
of using matching funds from other Federal sources that could 
be dedicated to transportation, for instance, from the Older 
Americans Act. In the previous authorizations, that has not 
occurred.
    Finally, they have an idea for getting some funding for 
their New Freedom Initiative, and we think that is important. 
We are hopeful that the money that they are thinking of 
dedicating for the New Freedom purposes will not come at the 
expense of some of the other programs.
    So I think the bottom line is they have taken some of the 
issues to heart, but there is a lot more that the 
administration needs to do and that Congress needs to 
incorporate into their proposals as the bills go forward this 
year.
    It turns out that at this point it seems likely that there 
will be a shorter-term--not a reauthorization, but a short-term 
gap proposal that would last for a year or two, perhaps until 
after the 2004 election. It is unclear, and that is changing 
day-by-day, but at this point, there is likely to be a short-
term piece rather than one that would last for 6 years.
    Ms. Siggerud. Ms. Markwood, do you have a comment?
    Ms. Markwood. What N4A is urging in the reauthorization of 
TEA-21 is to really focus in on the issue of coordination. We 
believe that we need to foster a coordinated approach to human 
services transportation as we have discussed this afternoon, 
and we need to provide additional funding to support that 
planning and coordination, because as we have also discussed, 
there is a price tag associated with that. We also need to 
reduce the regulatory burdens and provide incentives for 
Federal grantees to work cooperatively at the community level 
on aging and older mobility issue.
    Additionally, besides coordination, we too are working 
toward and we too want more money in the 5310 Program to be 
able to support older transportation options in the community. 
We also believe that there should be a set-aside demonstration 
project funded through the Federal Transit Administration to 
help establish those innovative programs targeted to meet the 
needs of older adults and to utilize creative partnerships at 
the local levels to make these partnerships happen.
    We also think that the Federal Transit Administration 
should develop and disseminate effective models and best 
practices through a national technical assistance center that 
would be targeted to meeting the needs of older adults.
    In addition to the reauthorization statements related to 
the Federal Transit Administration, we also think that the 
National Highway Traffic Safety Administration should focus 
additional attention--they have already focused a lot, but they 
need to focus additional attention--on older driver assessments 
and older driver safety issues, and specifically, public 
information needs to be disseminated about older driver issues.
    Additionally, we focus a lot on older driver safety and 
senior mobility, and the Federal Highway Administration is also 
key in that. When you are looking at promoting older driver 
safety, we have talked initially about the need for more 
markings, for better left turn exchanges. There is a whole 
range of different highway improvements that can be implemented 
that improve driving options for older adults.
    Unfortunately, especially in times of budget cuts, which is 
what the States are experiencing right now, these enhancements 
are usually the first things to be dropped.
    Again, the aging of the baby boomers is upon us. We cannot 
afford to drop any of these alternatives. We need to focus in 
on the continuum of senior mobility issues through the TEA-21 
reauthorization, from older driver safety to public 
transportation and paratransit options to redesigning our 
highways to make them safer for older adults and for all 
adults.
    Ms. Siggerud. Dr. Kerschner.
    Dr. Kerschner. Just a couple of quick points. I would 
really emphasize the importance of TEA-21 and the 
reauthorization in the area of 5310. As you can tell, I am 
particularly interested in senior transportation options and 
looking beyond the traditional options, particularly funding 
what we call the ``low-cost, low-maintenance'' option.
    I think it is important to address that in a couple of 
ways. First, I think we could put in matching funds for startup 
and operational costs of these kinds of services. I say 
matching funds because it is very important that funds come 
from the community or from the organizations themselves, and 
that they are willing to do that; it would show support at the 
national level.
    I think the second thing is to help programs identify 
insurance carriers and pay for insurance costs in the early 
years of the programs. Insurance is the breaker in terms of 
these community-based transportation programs. In a 
conversation, people are talking at a meeting about, ``Oh, we 
could really support seniors if we started a transportation 
program,'' and somebody raises their hand and says, ``But what 
about insurance?'' and the conversation stops. It is really 
unfortunate, because insurance is available, and it is not 
always that expensive. For our program, I think we provided 
total insurance for all the volunteers for the whole program 
for about $2,500 a year. It is available, and it is possible to 
get it, but I think people need to know about it, and some of 
the support would be helpful.
    I think travel reimbursement costs for volunteer drivers 
for these programs could be extremely helpful in supporting the 
programs and helping them get off the ground and supporting the 
whole idea of volunteerism. With the increased expense of 
gasoline now, this becomes a really important issue.
    Finally, to support the recruitment and training of 
volunteers who can be drivers but who can also be 
transportation caregivers could contribute a lot.
    All of that could happen under the 5310 legislation.
    Ms. Siggerud. Mr. Burkhardt.
    Mr. Burkhardt. I would like to support all the comments 
that I have heard so far today, and what I would like to do, 
and speaking as a private individual and researcher, is to wrap 
this all together into a brand, new program. I would like to 
see the Senate Special Committee on Aging support a senior 
mobility initiative as part of the reauthorization of TEA-21.
    This should be a multi-agency approach. It would include 
the Federal Transit Administration, the Administration on 
Aging, the National Highway Traffic Safety Administration, and 
the Federal Highway Administration--just to start. There should 
be other agencies involved in this effort as well.
    One of the first key issues is the publicity campaign to 
let the rest of America understand how important it is to 
consider the older driver and senior mobility issues that are 
going to face all of us in the very, very near future.
    A very important component of this senior mobility 
initiative would be demonstration programs. They would be 
demonstration programs to work with shared-ride taxi options, 
they would work with the kinds of volunteer options that we 
have been talking about, they would look at the kinds of 
coordinated services that we found in Detroit, and they would 
be supported by Federal funding which then would also be used 
to say which of these programs could be replicated across the 
country and under what conditions and circumstances, which are 
cost-effective in rural areas, which are cost-effective in 
urban areas.
    I certainly support more funds for FTA's Section 5310 
program, but that alone is not enough. We really need something 
new, and if we call it a ``senior mobility initiative'' or if 
we call it something else, it does not matter much to me. But 
it does matter to me that the Administration on Aging gets 
involved as well as these three agencies that are directly 
affected by the TEA-21 legislation. I hope that the Special 
Committee on Aging will push for this.
    Ms. Siggerud. Thank you.
    Ms. Lynch.
    Ms. Lynch. Thank you.
    I would like to build on what Mr. Burkhardt has said. It 
seems to me that the place we are today is that we need to 
break down the barrier that exists between transportation and 
human services transportation. We really need to move forward 
and make sure that transportation systems in this country focus 
on the needs of all the users--and that includes older drivers, 
transportation users, paratransit users, transit users--and 
take a philosophical leaf from the passage of the Americans 
with Disabilities Act, which tried to say in very simple 
language that the fact that a person has a disability should 
not prevent them from access to everything in American life. 
What we need to do in transportation is exactly the same thing.
    There was an assistant secretary of aging some years ago 
who used to talk about the need to ``gerontologize'' America, 
to make people understand what it means to have an aging 
society, and how so many of our systems need to change, and 
transportation is a wonderful place to start.
    Ms. Siggerud. Dr. Rosenbloom.
    Dr. Rosenbloom. Of course I echo what has gone before, but 
I would like to suggest that we not ghetto-ize these issues. If 
we focus only on additional 5310 funds, we are only doing 
triage; we are only taking care of the people with the most 
serious problems. But we are rapidly becoming an aging society. 
We have to take care of the older folks who could use public 
transportation, could use other options, who do not need door-
to-door but need something, who do not need an escort with them 
but need some kind of superior level of service.
    I would like to push for additional funding for transit 
operators to do travel training and transit familiarization for 
older people, to increase security at bus stops along the way, 
to increase information and communication en route so a rider 
will know, if the bus is late, whether it will be possible to 
make a transfer or not, etc.
    I would like to stress that we need more funding for--I 
would like to echo Jon's point that we need more funding for 
demonstration projects. I was recently working with the Harvard 
Project on Civil Rights, which is looking at the civil rights 
issues in the reauthorization of TEA-21, and those folks are 
absolutely amazed. They say that DOT is the only organization 
which does not do major demonstration projects that they follow 
for years and see how they work.
    So I think we need to be looking at that kind of thing that 
you see at HUD, that you see at Labor. We need to fund projects 
that deal with various aspects of things that you have heard 
about today, and then follow them not for a year, not for 2 
years, but for 5 or 10 years to see how people do, what the 
problems are, in what situations they can be transferred to 
other communities. This is really, really crucial.
    I would like to see more funding or more demonstration 
projects in the whole area of informal providers and private 
providers.
    I would also like to see more funding for ``growing'' 
transportation providers. FTA had a demonstration project, a 
very successful one, in Tennessee where they trained welfare 
recipients to be small-scale transport entrepreneurs in rural 
areas where there were no taxis and no volunteer programs. I 
would like to see some money put into those kinds of ideas.
    Also, someone earlier mentioned transportation planning. If 
any of you know how regional councils of government work, there 
is always one person--usually a young woman--who is the 
elderly, handicapped, minority--whatever the PC thematic issue 
of the day is--and after a long, complicated process goes on, 
she writes the last chapter of the transportation plan without 
it having anything to do with the major issues that have been 
grappled with for the whole process.
    I think it is crucial that older folks and people with 
disabilities should be mainstreamed into the transportation 
planning process. It is very hard to see how, if the 
transportation planning process does not consider these issues 
front and center, providers and people who deliver programs and 
services are going to see it.
    Finally, I think some of you may know that in TEA-21, 
roadway projects were required to consider the impact of 
accessible pedestrian facilities, but transit is not. Transit 
operators who take Federal money for Federal improvements, for 
improvements in their transit system, are not required to 
consider accessible pedestrian facilities.
    I have a huge collection of pictures of bus stops, 
accessible bus stops--that are totally unconnected to anything. 
No sidewalk goes to them. But if you could be put down by a 
Star Trek transporter right on that landing pad, you could 
easily get on and off the bus.
    In the reauthorization of TEA-21, we need to put the same 
regulatory requirements on transit operators for the use of 
Federal money as are now put on highway operators--that the 
pedestrian infrastructure is absolutely crucial to the use of 
transportation services.
    Thank you.
    Ms. Siggerud. Now that everyone has had a chance to get 
their initial set of ideas out on the table, are there any 
reactions from panelists? Does anyone want a second chance at 
it? [No response.]
    OK. We have had a great panel today. I asked early on, 
perhaps in our third theme, about what can we do to communicate 
what we know about best practices and innovative ideas to the 
rest of the United States and the rest of the communities that 
are struggling with these same issues we have addressed today. 
We did not get into that issue in a lot of detail, but I have 
to say that I think the record of this forum and this panel 
will in fact provide an excellent starting point to get those 
ideas on the record, and I hope we can continue to explore 
that.
    Let me thank each of our panelists, who have traveled from 
near and far to participate with us today. We had an excellent 
discussion with great participation.
    I know it would be very useful to the Senate Special 
Committee on Aging as they move forward, and as I said, they 
plan to make a record of the meeting we have had today and 
share it throughout the Congress, to be able to have an impact 
on legislation in both the House and the Senate.
    Again, I thank the committee staff and the Senators on the 
committee for giving us this opportunity to raise all of these 
issues, and thanks to the audience for sitting with us and 
being a very good audience, rapt, and a very large one as well. 
So it is great to see this amount of attention paid to these 
issues.
    Thank you.
    [Whereupon, at 4:40 p.m., the forum was concluded.]


</pre></body></html>
